               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           Accenture Federal Services
                   Contracts

         Management Advisory Report




                                          December 17, 2012

Report Number SM-MA-13-001
                                                                   December 17, 2012

                                             Accenture Federal Services Contracts

                                                       Report Number SM-MA-13-001




BACKGROUND:
Accenture Federal Services, LLC             management also purchased a cost
(Accenture) is a U.S. Postal Service        estimating tool to assist in evaluating
supplier that provides professional         supplier estimates but it has not fully
services. The Postal Service paid           implemented the tool, resulting in
Accenture over $112 million in fiscal       $90,000 in questioned costs. Accurate
year 2011. In June 2012, a Defense          cost estimates are critical to ensuring
Contract Audit Agency (DCAA) report         that contract costs are reasonable and
found that Accenture’s Postal Service       allowable. Further, the Postal Service
cost estimating system was inadequate.      was not included in the DOJ settlement,
In addition, in 2011, the U.S.              because it was aware of and allowed
Department of Justice (DOJ) announced       Accenture to charge fees for acquiring
that Accenture, LLP agreed to pay the       third-party hardware and software.
United States government $63.7 million      Current contract language increases the
to resolve a whistleblower lawsuit          risk of similar fees being charged on
alleging false claims. Our objectives       future task orders. Finally, we identified
were to follow-up on the DCAA audit         U.S. Department of Defense (DOD) best
report recommendations, summarize           practices that, if used by the Postal
recent events surrounding settlements       Service, could strengthen its oversight
with the DOJ, and identify best practices   of suppliers’ estimating practices.
for improving supplier cost estimates.
                                            WHAT THE OIG RECOMMENDED:
WHAT THE OIG FOUND:                         We recommended management require
Accenture initiated policy changes to       Accenture to correct the two remaining
fully address six of eight DCAA             DCAA reported deficiencies; revise
recommendations. However it did not         policy and clauses to define material
fully address the recommendation to         handling costs and exclude handling
conduct periodic reviews of its             fees on time and material contracts;
estimating system and no corrective         provide instruction on assessing
actions are underway to address the         technical analyses; assess the
recommendation to monitor actual costs      usefulness and feasibility of
to estimated costs. In addition, Postal     incorporating DOD best practices into
Service contracting officials did not       the Postal Service environment; and
obtain and assess the Information           develop a plan to implement the
Technology (IT) subject matter experts’     software cost estimating tool and train
technical analyses performed on eight       employees on using it.
proposals, valued at $8,204,045 to
support that costs were reasonable. IT      Link to review the entire report.
December 17, 2012

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT

                           JOHN T. EDGAR
                           VICE PRESIDENT, INFORMATION TECHNOLOGY




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory Report — Accenture Federal
                           Services Contracts (Report Number SM-MA-13-001)

This report presents the results of our review of Accenture Federal Services Contracts
(Project Number 12YG038CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachments

cc: Stephen Masse
    Deborah Giannoni-Jackson
    Paula S. Garner
    Mark A. Mittelman
    John P. Byrne
    Robert L. Oates
    Robert D’Orso
    Susan A. Witt
    Corporate Audit and Response Management
Accenture Federal Services Contracts                                                                              SM-MA-13-001




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Accenture’s Response to Defense Contract Audit Agency Recommendations ............... 2

Evaluation Procedures and Practices.............................................................................. 4

U.S. Department of Justice Settlement ........................................................................... 5

U.S. Department of Defense Best Practices ................................................................... 6

   Contract Business Analysis Repository ....................................................................... 7

   Business System Clauses ........................................................................................... 7

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objectives, Scope, and Methodology ........................................................................ 11

   Prior Audit Coverage ................................................................................................. 13

Appendix B: Monetary Impacts ..................................................................................... 14

Appendix C: U.S. Department of Defense Clauses ....................................................... 15

   Clause 252.215-7002 Cost Estimating System Requirements .................................. 15

   Clause 252.242-7005 Contractor Business Systems ................................................ 16

Appendix D: Management’s Comments ........................................................................ 17
Accenture Federal Services Contracts                                                           SM-MA-13-001




Introduction

This report presents the results of our review of Accenture Federal Services contracts
(Project Number 12YG038CA000). Our objectives were to follow-up on the Defense
Contract Audit Agency’s (DCAA) audit report recommendations, summarize recent
events surrounding settlements with the U.S. Department of Justice (DOJ), and identify
best practices for improving supplier cost estimations. This self-initiated review
addresses financial risk. See Appendix A for additional information about this review.

Accenture Federal Services, LLC (Accenture), a wholly owned subsidiary of Accenture,
LLP, is a U.S. Postal Service supplier, providing professional, computing, and
application programming services. Accenture ranked on the list of top 10 Postal Service
suppliers, with payments of more than $112 million in fiscal year (FY) 2011. Accenture
was a supplier under the Postal Service's Information Technology’s (IT) Preferred
Portfolio Partnering (PPP) program, which awarded long-term professional service
ordering agreements to enterprise-wide IT providers. Accenture is one of four suppliers
under the Enterprise Technical Services (ETS) program.1

In 2009, the U.S. Postal Service Office of Inspector General (OIG) audited the PPP
program and determined that the Postal Service had not reviewed Accenture’s
estimating system controls.2 As a result of the audit, the OIG initiated a DCAA audit to
review Accenture’s estimating system. The DCAA issued its report in June 20123 and
determined that Accenture’s estimating system and related policies and procedures
were inadequate and identified eight significant deficiencies.

Further, in 2011, the DOJ announced that Accenture, LLP agreed to pay the U.S.
government $63.7 million as settlement to resolve a whistleblower lawsuit. Accenture
agreed to resolve allegations that it received kickbacks for its recommendations of
hardware and software to the government, fraudulently inflated prices, and rigged bids
in connection with federal IT contracts.

Conclusion

Accenture has initiated policy changes to fully address six of the eight DCAA
recommendations. The supplier’s revised policy did not fully address the
recommendation to conduct periodic reviews of its estimating system and no corrective
actions are underway to address the recommendation to develop a monitoring process
that compares estimated costs to actual costs. In addition, we found that Supply
Management personnel did not obtain and assess the IT subject matter expert’s
technical analyses performed for eight Accenture Global Business System (GBS)

1
  The ETS program was established in August 2009 and includes work previously awarded under the PPP program.
2
  Information Technology’s Preferred Portfolio Partnering Program, CA-AR-09-007, September 29, 2009.
3
  Audit of Accenture Federal Services, LLC's Estimating System and Related Internal Controls, CA-CAR-12-008.
                                                           1
Accenture Federal Services Contracts                                                                    SM-MA-13-001



proposal estimates to ensure the analyses were adequate to support that the proposed
labor hours and categories were reasonable. Further, IT management spent $147,5004
on a cost estimating tool purchased to enhance the proposal evaluation process but did
not implement it or train users. We questioned $90,000 of the software and database
licensing fees because IT management did not fully implement the tool. Accenture and
other ETS suppliers are contractually required to use the same tool to develop proposal
estimates as of October 2012.

The Postal Service was not included in the DOJ settlement with Accenture that resolved
allegations of kickbacks, rigged bids, and fraudulently inflated prices because
Postal Service contracting officials were aware of and allowed Accenture to charge fees
for acquiring third-party hardware and software on the PPP task orders. The contracting
officer (CO) allowed for handling fees of between 3 and 10 percent of material costs,
commensurate with the level of expertise and effort required for the purchase. The fee
for four proposals reviewed totaled $45,647 and was below the 3 percent CO-approved
threshold. We did not identify language in the current Accenture contract under the ETS
program specifying payment for handling fees, but the contract does contain a clause
allowing payment for material handling costs on time and material (T&M) task orders.

Our research noted that Federal Acquisition Regulation (FAR) clauses for T&M
contracts were updated to specifically state that fee or profit is not allowed on the prime
contractor’s purchase of materials. Finally, we identified a U.S. Department of Defense
(DOD) database containing contractor information and two DOD contract clauses that, if
used by the Postal Service, could strengthen its oversight of supplier estimating system
practices.

Accenture’s Response to Defense Contract Audit Agency Recommendations

Accenture has initiated policy changes to fully address six of eight recommendations
identified in the DCAA report. Accenture’s policy updates did not fully address the
recommendations to conduct periodic reviews of its estimating system, and no
corrective actions are underway to address the recommendation to develop a
monitoring process that compares estimated costs to actual costs as noted in Table 1.




4
    This cost includes software and databases licenses, training workshops and a one-time installation fee.


                                                            2
  Accenture Federal Services Contracts                                                              SM-MA-13-001




                            Table 1. Status of DCAA Recommendations


                                                                       Recommendation Addressed in
            Recommendation Summary                                           Revised Policy
 1. Use historical data when developing estimates.               Yes
 2. Develop a monitoring process that compares
 estimated costs to actual costs.                                No
 3. Require periodic independent reviews be                      Partial. Manual does not include the
 performed on the estimating systems.                            requirement that Accenture will maintain a
                                                                 log of completed reviews documenting
                                                                 system deficiencies and corrective action.
 4. Revise estimating manual to indicate how often
 training is required and when training needs to be
 completed for personnel involved in the Postal
 Service’s estimating system.                                    Yes
 5. Document and maintain proposal reviews with the
 proposal files and indicate who reviewed the
 proposal and when the review was performed.                     Yes
 6. Incorporate techniques for price analysis in the
 estimating policies, procedures, and practices.                 Yes
 7. Document the procedures and practices for
 estimating contract changes and deleted work.                   Yes
 8. Update policies, procedures, and practices to
 include the process of updating the cost or pricing
 data at the point of agreement on price.                        Yes
Source: DCAA’s Accenture Federal Services, LLC’s Estimating System and Related Internal Controls audit report and
OIG review of Accenture’s revised U.S. Postal Service Cost Estimating Manual.

  The policy updates partially addressed the DCAA’s recommendation that management
  revise the current estimating policies, procedures, and practices to require periodic
  independent reviews of the estimating system. Accenture’s U.S. Postal Service Cost
  Estimating Manual did not indicate the frequency of internal control reviews and did not
  include the requirement that Accenture will document audit plans and maintain a written
  log of completed reviews, including system deficiencies and corrective actions.
  Accenture stated in a follow-up response that it will revise its policy, effective October
  31, 2012, to perform periodic reviews on at least a 3-year cycle, document audit plans,
  and maintain a written log of completed reviews documenting system deficiencies and
  corrective actions. We have not received documentation to support the proposed policy
  changes.

  Accenture further stated that it did not update its policy to monitor proposal estimates
  against actual data because historical data are incorporated in the estimates through
  the commercial estimating tools the Postal Service requires. While the Postal Service




                                                          3
Accenture Federal Services Contracts                                                               SM-MA-13-001



does require Accenture, as a supplier under the ETS program,5 to use industry-standard
software estimating tools to provide accurate and consistent software, schedule, and
pricing estimates, it also required that Accenture track software development
performance against the initial estimate, as noted in the ETS program’s statement of
work. Further, the Government Accountability Office (GAO) indicated that estimating
tools that use parametric modeling should be validated using historical data to
determine how well it predicts costs.6 Accurate cost estimates are critical to ensuring
that contract costs are reasonable and allowable. If Accenture does not compare the
estimated costs to actual costs incurred, there are no internal controls to ensure that the
estimate was valid and the estimating process is a valid predictor of actual costs.

Accenture must correct all system deficiencies noted in the DCAA report to provide the
Postal Service assurance that Accenture’s estimating system controls are effective.
When Accenture has provided evidence that it has fully complied with the DCAA
recommendations, we will initiate a follow-up DCAA audit to determine whether
Accenture has adequately implemented its corrective actions.

Evaluation Procedures and Practices

Supply Management personnel did not obtain and assess the IT subject matter experts’
technical analyses performed on proposed labor costs for eight GBS proposals, valued
at $8,204,045 and submitted under Task Order 1BITSV-12-C-0048 to support that
proposed labor categories and hours were reasonable. Supply Management’s process
is to rely on IT subject matter experts to determine the reasonableness of proposed
hours and labor categories; however, the CO awarded work on six task orders based on
an email message from the IT subject matter expert indicating the proposal was
“approved”, relied on an email that implied approval on one proposal, and could not
locate the email for another proposal. Contracting officials stated that they accepted
these emails under the assumption that IT completed an adequate technical analysis.
They did not require the subject matter expert to document and provide the analysis to
determine the adequacy of the evaluation conducted. A GBS official stated that they do
not determine whether all labor categories or proposed hours are reasonable, but rather
perform a high-level comparison of overall proposed costs to past project costs and a
review of the proposed management level of effort.

The Supply Principles and Practices indicate that COs are responsible for determining
and ensuring best value. Best value is defined as the outcome that provides the optimal
combination of elements, such as lowest total cost of ownership, technology, innovation
and efficiency; assurance of supply; and quality relative to the Postal Service’s needs.
To determine cost reasonableness, cost analysis involves, as appropriate, performing a
technical analysis to evaluate estimated labor costs.7 However, if CO do not assess



5
  The ETS program provides for professional, technical and support services, using multiple vendors.
6
  GAO Cost Estimating and Assessment Guide, GAO-09-3SP, dated March 2009.
7
  Supplying Principles and Practices, dated September 2011, Section 2-34.6, Conduct Cost/Price Analysis.


                                                        4
Accenture Federal Services Contracts                                                                  SM-MA-13-001



the technical analysis performed, they cannot ensure the evaluation was adequate and
that the proposed labor categories and hours are reasonable or necessary. We
identified the value of the eight proposals as unsupported questioned costs because the
CO did not obtain adequate documentation to support the reasonableness of the
supplier's proposed labor categories and hours. See Appendix B for additional
information.

Further, the Postal Service purchased a cost estimating tool to enhance supplier
proposal evaluations and make informed financial and technical decisions, but IT
management stated the tool is not being used in the proposal evaluation process.
SEER® for Software (SEER) is an algorithmic project management software application
designed specifically to estimate, plan, and monitor the effort and resources required for
software development and maintenance projects. According to the approved
non-competitive business justification, the Postal Service mandated its use of a qualified
parametric estimating tool8 for proposal evaluations via the ETS program. The Postal
Service must acquire and install the tool and train employees on its usage to satisfy
contractual requirements. IT management has spent a total of $147,500 on the SEER
acquisition, which includes $60,000 for annual software and database licenses, $25,500
for training workshops, and a one-time installation fee of $2,000 in June 2011. IT
management spent an additional $60,000 in June 2012 for annual license renewals;
however, as of September 11, 2012, the Postal Service does not have policies and
procedures governing the use of SEER and has not trained personnel to use the tool.

IT management indicated in its non-competitive justification request for SEER that it
requires a best-in-breed parametric software development resource and cost estimating
tool to significantly enhance evaluations and make informed financial and technical
decisions. In addition, as part of the ETS contract extensions, the Postal Service
required ETS suppliers to use SEER as of October 1, 2012. IT officials indicated they
are conducting benchmark analyses on the best ways to use SEER and only recently
received budgetary approval for resources to implement the use of SEER. Without
adequate policy and appropriate training on the use of SEER, the Postal Service is at
risk of not meeting current and future needs for evaluating and measuring software
development tasks, resources, and funding. We are reporting $90,000 of the $120,000
spent on SEER licenses in FYs 2011and 2012 as questioned costs because the Postal
Service did not fully implement SEER into the proposal evaluation process. See
Appendix B for additional details.

U.S. Department of Justice Settlement

The Postal Service was not included in the DOJ’s $63.7 million settlement with
Accenture, LLP to resolve allegations that it received kickbacks for its recommendations
of hardware and software to the government, fraudulently inflated prices, and rigged
bids in connection with federal IT contracts. A Postal Service OIG investigation
determined that a key difference that excluded the Postal Service from the settlement

8
 Parametric tools are based on historical data collected from hundreds of actual projects that can generate cost,
schedule, effort, and risk estimates based on input provided by the tool user.


                                                          5
Accenture Federal Services Contracts                                                          SM-MA-13-001



was that Accenture had disclosed handling fees for acquiring third-party hardware and
software for the Postal Service. In addition, the PPP contract files noted a Postal
Service CO allowed Accenture to charge handling fees. Specifically, in an August 2000
letter to Anderson Consulting, LLP,9 the CO authorized the supplier and the Postal
Service to negotiate a reasonable handling fee that the contractor may apply to
hardware and software purchases and leases for invoicing to the Postal Service. The
letter indicated the fee should range from between 3 and10 percent, depending on the
level of effort and expertise. We reviewed one of the two task orders identified during
the OIG investigation that contained material handling fees.10 Task Order 1BITTL-05-C-
3064, valued at $9,847,695, included material handling fees totaling $45,647. These
fees did not exceed 3 percent of the cost for materials, valued at $1,553,510, and was
approximately .46 percent of the total task order value.

We did not identify language in the current Accenture contract under the ETS program
specifying payment for handling fees. However it contained a clause applicable to T&M
task orders that allowed for payment of material handling costs to the extent they are
excluded from the hourly rate.11 This clause included language similar to a FAR clause
dated November 22, 2006, which also allowed for payment of material handling costs. 12
The FAR clause further defined material handling costs as indirect costs including, as
appropriate, general and administrative expenses allocated to direct materials in
accordance with the contractor’s usual accounting practices consistent with the FAR.
Further, in February 12, 2007, the FAR-issuing agencies revised the clause to
specifically state that the government does not pay profit or fees to the prime contractor
for materials. FAR councils13 “believed this is consistent with the historical intent of the
clause and the concept of a T&M contract, in that the recovery of profit or fee is
accomplished as part of the labor hour portion of the T&M contract.”

Supply Management officials indicated they were not aware of the FAR revisions,
although they are not subject to the FAR. While the Postal Service is not required to
adhere to the FAR, the FAR provides vetted procurement policy and procedures used to
protect the interests of the federal government. Postal Service T&M contracts also
include supplier profit in the hourly rate; therefore, inclusion of similar language in
supply management policies and contract clauses is critical to reducing unnecessary
fees paid to suppliers and provides additional clarity to Postal Service contracting
officials responsible for negotiating and managing T&M contracts.

U.S. Department of Defense Best Practices

We identified best practices used to assist DOD COs in awarding and managing
contracts that the Postal Service should consider as additional controls to enhance its
oversight of supplier estimating practices.


9
  On January 1, 2001, the company changed its name to Accenture.
10
   COs could not locate the second file, which was outside of their retention period.
11
   Clause 2-38, Payment (Time and Materials and Labor Hour Contracts).
12
   FAR clause 52.232-7, Payments under Time and Materials and Labor Hour Contracts.
13
   The Civilian Agency Acquisition Council and the Defense Acquisition Regulations Council.


                                                         6
Accenture Federal Services Contracts                                                       SM-MA-13-001



Contract Business Analysis Repository

The Defense Contract Management Agency (DCMA), a component of the DOD,
developed a reporting database to centrally capture information about suppliers. The
Contract Business Analysis Repository (CBAR) eTool captures supplier information,
such as general company information, indirect costs and direct labor rates, financial
accountability, and the status of business systems, to include estimating systems.14
DOD administrative COs are required to populate data into CBAR for major contractors
and can include information on smaller contractors. As of September 18, 2012, the
DCMA indicated that CBAR contains more than 2,800 contractor records. While CBAR
is primarily a tool for DOD COs, it is available for other government agencies’ use. The
Postal Service could benefit from using CBAR as a resource to determine whether its
larger suppliers maintain adequate estimating systems before awarding or renewing
contracts.

Business System Clauses

The DOD amended its Defense Federal Acquisition Regulation Supplement (DFARS) in
February 2012 to improve the effectiveness of its oversight of contractor business
systems and ensure that such systems provide timely, reliable information.15
Specifically, the DOD finalized the cost estimating system requirements and contractor
business systems clauses that require certain suppliers to maintain acceptable business
systems.16 The full details of the DOD’s Cost Estimating System Requirements clause
and Contractor Business Systems clause are included in Appendix C. While the
Postal Service is not subject to the FAR or DFARS, it does not currently have specific
policies and procedures or clauses that address supplier estimating systems. In
addition, as noted in Accenture’s T&M task order proposals, price was based on hourly
rates applied to Accenture’s estimate of hours. Therefore, the inclusion of similar
clauses in Postal Service contracts would provide additional leverage to Postal Service
contracting officials to ensure its suppliers maintain effective controls over their
estimating system process and reduce the risk of unreasonable or unallowable costs in
Postal Service contracts.

Recommendations

We recommend the vice president, Supply Management:

1. Direct the manager of the Technology Infrastructure Portfolio to require Accenture to
   implement corrective actions to address all Defense Contract Audit Agency
   deficiencies noted in its estimating system.


14
   Contractor business systems include accounting systems, estimating systems, purchasing systems,
earned value management systems, material management and accounting systems, and property management
systems.
15
   Federal Register, Volume 77, Number 37, dated February 24, 2012.
16
   DFARS Section 252.215-7002, Cost Estimating System Requirements, and DFARS Section 252.242-7005,
Contractor Business Systems.


                                                    7
Accenture Federal Services Contracts                                          SM-MA-13-001



2. Instruct contracting officials that when requesting technical analysis of proposed
   labor categories and hours, they must obtain, assess, and maintain technical
   analysis documentation to ensure the analysis conducted is adequate to support
   whether proposed labor categories and hours are fair and reasonable.

3. Revise the policy and clauses for time and material contract types to include a
   definition of material handling costs and exclude payment of profit or handling fees
   on materials.

4. Assess the usefulness of the Contract Business Analysis Repository as a tool to
   include in the purchasing process and the feasibility of developing estimating system
   clauses.

We recommend the vice president, Information Technology, in coordination with the
vice president, Supply Management:

5. Develop and implement a plan to train users and implement the SEER® for Software
   cost estimating tool into the Enterprise Technical Services proposal evaluation
   process.

Management’s Comments

Management agreed with all of the findings, monetary impact, and recommendations.
Regarding recommendation 1, management stated they will continue to work with
Accenture to implement corrective actions for the remaining two items the DCAA
recommended. The target implementation date is February 2013.

For recommendation 2, management held discussions with Technology Infrastructure
Portfolio contracting officials and managers within Information Technology, Business
Relationship Management, and Solutions Development & Support on November 26,
2012. They stated they would provide documentation to close out this recommendation
prior to final report issuance.

For recommendation 3, management will provide clarification or revise policy and
clauses for time and material contracts to ensure that materials and material handling
costs are excluded from the application of profit. The target implementation date is
March 2013.

For recommendation 4, management indicated they assessed the usefulness of the
Contract Business Analysis Repository (CBAR) and the feasibility of developing
estimating system clauses. Management stated that because CBAR is in its pilot phase
and is not available for civilian use, they are not implementing its use at this time. In
addition, management stated that implementing estimating system clauses would
increase the administrative burden and the cost of doing business with the Postal
Service and determined not to implement the estimating system clauses because the
clauses are not consistent with its commercially based purchasing process.



                                            8
Accenture Federal Services Contracts                                            SM-MA-13-001



Management considers the actions for this recommendation completed as of December
11, 2012.

For recommendation 5, management stated they will train program managers within the
Business Relationship Program Management Organization on the SEER for Software
cost estimating tool by June 2013. See Appendix D for management’s comments in
their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.
Regarding recommendation 2, we received documentation to support that management
provided instruction to Technology Infrastructure Portfolio contracting officials that they
are to obtain the written analysis for use in determining best value when requesting a
technical analysis. The technical analysis is to be kept in the contract file. The corrective
action sufficiently addresses recommendation 2, therefore, we are closing this
recommendation with issuance of this report. Regarding recommendation 4, we want to
reiterate that civilian agencies, including the Postal Service, can obtain access to
CBAR. Contractors, however, are excluded from obtaining access.

The OIG considers recommendations 1, 3, and 5 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




                                              9
Accenture Federal Services Contracts                                                                  SM-MA-13-001




                                 Appendix A: Additional Information

Background

Accenture, a Postal Service supplier, provides professional, computing, and application
programming services. Accenture ranked within the Postal Service’s top 10 suppliers,
with payments of more than $112 million in FY 2011. Accenture was a vendor under the
Postal Service's IT PPP program, which awarded long-term professional service
ordering agreements to enterprise-wide IT providers.

In 2009, the OIG audited the PPP program and determined the price and cost analyses
that Postal Service personnel performed on task orders usually did not result in
negotiated price reductions of Accenture's proposals. Additionally, Supply Management
personnel did not always follow the recommendations of a third-party contractor to
reduce task order amounts or reject them in full. Further, the PPP program pricing
process did not conform to best practices for pricing IT service contracts and task
orders.

In August 2009, the Postal Service established the ETS program, which included work
previously awarded under the PPP program and awarded indefinite delivery-indefinite
quantity (IDIQ)17 contracts to four suppliers: Northrop Grumman, General Dynamics,
Electronic Data Systems Corporation, and Accenture, with the goal of competing task
orders between the suppliers.

As a result of the audit, the OIG initiated a DCAA audit to review Accenture’s estimating
system. The DCAA report, issued in June 2012, indicated that Accenture’s estimating
system was inadequate and identified eight significant deficiencies in the supplier’s
estimating system and related internal controls. Specifically, Accenture did not:

    Use historical experience for estimating Postal Service proposals.

    Monitor estimates against actual experience.

    Perform periodic internal audits on its Postal Service estimating system.

    Require periodic training for employees in its U.S. Postal Service Cost Estimating
     Manual.

    Always document management reviews of its proposal packages.

    Perform adequate review of subcontractors’ cost proposals.



17
 An IDIQ contract provides for an indefinite quantity of specific supplies or services within a stated minimum and
maximum quantity to be delivered during the contract period to designated locations when ordered.


                                                         10
Accenture Federal Services Contracts                                             SM-MA-13-001



      Formally document policies, procedures, and practices for contract changes and
       deleted work.

      Have policies, procedures, and practices in place to provide for updating cost or
       pricing data up to the point of agreement on price.
Further, in 2011, the DOJ announced that Accenture LLP agreed to pay the U.S.
government $63.7 million, as settlement, to resolve a whistleblower lawsuit. The lawsuit,
filed in the U.S. District Court for the Eastern District of Arkansas, alleged that
Accenture submitted or caused to be submitted false IT service claims for payment
under numerous contracts with U.S. agencies. Accenture has agreed to resolve
allegations that it received kickbacks for its recommendations of hardware and software
to the government, fraudulently inflated prices, and rigged bids in connection with
federal IT contracts.

As of July 31, 2012, the Postal Service has issued 75 task orders against the Accenture
ETS contract, with a total committed value of $252 million.

Objectives, Scope, and Methodology

Our objectives were to follow-up on DCAA’s audit report recommendations, summarize
recent events surrounding settlements with the DOJ, and identify best practices to
improve supplier cost estimations.

To accomplish our objectives, we:

      Reviewed Postal Service purchasing policies and procedures.

      Reviewed and analyzed Accenture ordering agreements under the previous PPP
       program awarded in 1998 and current Accenture ETS contracts awarded in August
       2009.

      Reviewed Accenture’s U.S. Postal Service Cost Estimating System Manual.18

      Analyzed the four price proposals containing material handling fees awarded on
       Task Order 1BITTL-05-C-3064 and the eight price proposals issued on Task Order
       1BITSV-12-C-0048.

      Identified and reviewed documents related to the DCAA audit findings and the DOJ
       settlement.

      Reviewed Federal Acquisition Regulation, DFARS, and GAO guidance on estimating
       systems.

      Interviewed Postal Service Supply Management and IT personnel, DCAA audit and

18
     Version 2.3, dated August 7, 2012.


                                               11
Accenture Federal Services Contracts                                      SM-MA-13-001



   DCMA personnel, and OIG investigators.

We conducted this review from June through December 2012 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on November 13, 2012, and included their comments where appropriate.
We did not rely on computer-generated data for the purposes of this report.




                                         12
Accenture Federal Services Contracts                                            SM-MA-13-001



Prior Audit Coverage

                                                          Final Report       Monetary
            Report Title             Report Number            Date            Impact
  Audit of Accenture Federal
  Services, LLC's Estimating
                                     CA-CAR-12-008 06/26/2012          None
  System and Related Internal
  Controls
  Report Results: The DCAA determined that Accenture’s estimating system and
  related internal controls were inadequate.

  Accenture Labor Floor Check
                                      CA-CAR-10-013         09/28/2010           None
  for FY 2009
  Report Results: The DCAA determined that Accenture employees were not
  properly completing timesheets and Accenture's management did not perform
  adequate reviews of employee timesheets. The DCAA also found numerous
  incidents in which labor distribution payroll records did not reconcile to timesheets.

  Information Technology’s
  Preferred Portfolio Partnering       CA-AR-09-007        09/29/2009          None
  Program
  Report Results: The price and cost analysis Postal Service personnel performed
  usually did not result in negotiated price reductions of Accenture LLC’s proposals.
  Additionally, Supply Management personnel did not always follow the
  recommendations of a third-party contractor to reduce task order amounts or reject
  them in full. In additions, the PPP program pricing process did not conform to
  current best practices for pricing IT service contracts and task orders. However,
  Supply Management personnel had implemented IT service industry best practices
  by making plans to award multiple indefinite delivery indefinite quantity contracts for
  IT services. Management agreed with our findings and recommendations.




                                             13
Accenture Federal Services Contracts                                                                  SM-MA-13-001




                                    Appendix B: Monetary Impacts


           Recommendation                       Impact Category                              Amount
                 2                      Unsupported Questioned Costs19                      $8,204,045
                 5                      Unrecoverable Questioned Costs20                        90,000
                Total                                                                       $8,294,045


The $8,204,045 represents the total value of the base award and seven cost
modifications, issued on GBS Task Order 1BITSV-12-C-0048. The CO did not obtain
and assess IT subject matter expert technical analyses performed on the proposed
labor costs to determine whether the analyses supported that the costs were
reasonable.

We questioned $90,000 of the $120,000 spent to purchase SEER software and
database licenses. Postal Services management purchased the SEER licenses to
enhance the proposal evaluation process, but has not implemented it. The $90,000
represents the entire $60,000 spent for the 25 annual SEER software and database
licenses that expired in June 2012 and $30,000 of the $60,000 spent for the 25 annual
SEER software and database license renewals that expire in June 2013. As a
conservative estimate, we only questioned 50 percent of the amount spent for current
license renewals to allow the IT and Supply Management personnel 6 months to
implement SEER.




19
   A weaker claim and a subset of questioned costs. The claim that is made because of missing or incomplete
documentation or failure to follow policy or required procedures but that does not necessarily connote any real
damage to Postal Service.
20
   Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, etcetera. May be
recoverable or unrecoverable and is usually a result of historical events.


                                                         14
Accenture Federal Services Contracts                                 SM-MA-13-001



                    Appendix C: U.S. Department of Defense Clauses

Clause 252.215-7002 Cost Estimating System Requirements




                                          15
Accenture Federal Services Contracts              SM-MA-13-001



Clause 252.242-7005 Contractor Business Systems




                                       16
Accenture Federal Services Contracts                           SM-MA-13-001



                           Appendix D: Management’s Comments




                                          17
Accenture Federal Services Contracts        SM-MA-13-001




                                       18
Accenture Federal Services Contracts        SM-MA-13-001




                                       19
